                           TELAMON CORPORATION
                               WEST VIRGINIA
                                   ***

                             AUDIT REPORT ON
                    U.S. DEPARTMENT OF LABOR GRANT
                           NUMBER AC-10737-00-55



                              Performance Audit for
                  Program Year July 1, 2000 through June 30, 2001




This audit was performed by Harper, Rains, Knight & Company, P.A., under contract to the
Inspector General, and, by acceptance, it becomes a report of the Office of Inspector
General.


                                                __________________________________
                                                 Assistant Inspector General for Audit




                                                     Report Number: 21-04-003-03-365

                                                     Date Issued: March 10, 2004
Mr. Elliot P. Lewis
Assistant Inspector General
 for Audit
Office of Inspector General
U.S. Department of Labor
Washington, D.C. 20210



We were engaged to perform a performance audit of National Farmworker Jobs Program Grant
AC-10737-00-55 awarded to Telamon Corporation - West Virginia (TCWV) by DOL. The audit
was to determine whether the costs claimed by TCWV for the period July 1, 2000 through June
30, 2001, were reasonable, allowable, and allocable under the cost principles set forth in OMB
Circular A-122 and grant guidelines and whether the performance reported was accurate and
properly supported. We were also to report our findings and recommendations in accordance
with Government Auditing Standards issued by the Comptroller General of the United States.
Such standards require that we objectively and systematically examine evidence to provide an
independent assessment of the performance of a government organization, program, activity, or
function. We believe our audit provides such an assessment.

This performance audit was designed to provide reasonable assurance about compliance with
significant laws, regulations, and other compliance requirements and to obtain an understanding
of management controls that are relevant to the audit. For those management controls
determined to be significant to the audit, we obtained sufficient evidence to support our
judgments about those controls. An audit made in accordance with these standards provides
reasonable assurance that its objectives have been achieved; but it does not guarantee the
discovery of illegal acts or abuse. Our findings section of the performance report provides our
conclusions on TCWV's compliance and controls.




February 8, 2002
                                                 TABLE OF CONTENTS
                                                                                                                                        Page

ACRONYMS ............................................................................................................................. i

EXECUTIVE SUMMARY....................................................................................................... 1

INTRODUCTION AND BACKGROUND.............................................................................. 3

OBJECTIVES, SCOPE, AND METHODOLOGY .................................................................. 4

AUDITOR’S REPORT ON PERFORMANCE........................................................................ 6

FINDINGS ................................................................................................................................ 7

     1. Inadequate Documentation in Participant Files .............................................................. 7

     2. Costs Were Not Equitably Distributed Among Cost Objectives .................................... 9

     3. Improper Verification of Participant Work History...................................................... 11

     4. Performance Data Reviewed Were Accurate and Supported ....................................... 12


SCHEDULES

                Schedule A - Schedule of Costs Reported ............................................................ 13

                Schedule A-1 - Schedule of Costs Reported
                Supplemental Information..................................................................................... 14

                Schedule B - Schedule of Performance Reported ................................................. 15

APPENDIX

Appendix A –Telamon’s Written Response to Draft Report .................................................. 18
                                ACRONYMS


CFR   -   Code of Federal Regulations

DOL -     U.S. Department of Labor

DMSF -    Division of Migrant and Seasonal Farmworkers

ETA   -   Employment and Training Administration

FSR   -   Financial Status Report

NFJP -    National Farmworker Jobs Program

OMB -     Office of Management and Budget

OIG   -   Office of Inspector General

TCWV -    Telamon Corporation of West Virginia

WIA   -   Workforce Investment Act




                                        i
                                  EXECUTIVE SUMMARY

The U.S. Department of Labor (DOL), Office of Inspector General (OIG), contracted with
Harper, Rains, Knight and Company, P.A., to perform an audit of the Workforce Investment
Act's National Farmworker Jobs Program to determine whether the program was operating in
accordance with applicable regulations. DOL provides 53 grants to states and nonprofit
organizations to operate the program within 48 states and Puerto Rico. We selected a statistical
sample of nine grantees for review with the audit objectives to determine that the direct and
indirect costs claimed for reimbursement by these grantees were reasonable, allowable and
allocable under the cost principles set forth in OMB Circular A-122, or OMB Circular A-87, as
applicable, and grant guidelines, and to determine performance reported was accurate and
properly supported. The Program was audited for program year 2000 (July 1, 2000 through June
30, 2001).

This report discusses the results of our audit of Telamon Corporation - West Virginia (TCWV)
under DOL Grant Number AC-10737-00-55. Under the authority of the Workforce Investment
Act of 1998 (WIA), DOL's Employment and Training Administration (ETA) awarded TCWV a
grant in the amount of $217,725 to provide training and services to eligible migrant and seasonal
farmworkers throughout the State of West Virginia to strengthen their ability to achieve
economic self-sufficiency. TCWV operates from three offices, an administrative headquarters
along with an additional office in Martinsburg, as well as an office in Romney.

We found: (1) that participant files did not contain adequate documentation to allow us to
determine their eligibility, and we question the costs paid to these participants, (2) that some
costs not directly attributed to the Farmworker Program were charged against the Farmworker
Grant, rather than to all programs that benefited, (3) that the grantee had a questionable policy of
allowing farmworkers to certify other farmworker’s farmwork history, and (4) the performance
reported was accurate and supported.

Findings

1. Inadequate Documentation in Participant Files

We question $1,566 charged to the DOL grant because TCWV provided services to 13
participants whose files did not contain sufficient documentation to allow the auditors to verify
their eligibility. The questioned costs consisted solely of payments to participants for related
assistance.

2. Costs Were Not Equitably Distributed Among Cost Objectives

We question $3,781 because TCWV failed to allocate costs that benefited more than one grant.




                                                 1
3. Improper Verification of Participants’ Work History

We question the practice of allowing participants to verify farmwork of other participants when
they were not employed by the same employer and at the same time. We noted that one
participant signed employment verifications for seven other participants, but that participant was
not working for the same employer as the other participants she was attesting to during the time
period covered by the verifications.

4. Performance Data Reviewed Were Accurate and Properly Supported

We reviewed the data reported by TCWV on the Program Status Summary to determine whether
this information was accurate and properly supported. We were able to both verify the overall
totals reported to supporting documents and also verify the type of outcomes reported for
individual participants that were selected in our sample testing.

Auditee’s Response

TCWV provided a written response included as Appendix A in this report. TCWV disagreed
with Finding 1, agreed with Finding 2, and did not respond to Finding 3.

In response to our finding that costs were not equitably distributed among cost objectives,
TCWV states it is requiring the allocation procedure to use the “assignment methodology,”
unless otherwise justified.

Auditors’ Conclusion

No changes in our position were made as a result of the auditee’s response.

Recommendations

We recommend that the Assistant Secretary for Employment and Training:

   1. Recover $1,566 in questioned costs related to insufficient documentation to allow the
      auditors to verify eligibility for 13 participants (Finding 1).

   2. Recover $3,781 in questioned costs and require TCWV to strengthen controls that will
      ensure that all expenditures benefiting multiple cost objectives, not just recurring
      overhead costs, are distributed among those objectives equitably. (Finding 2)

   3. Require TCWV to strengthen its controls over the participant eligibility verification
      process by ensuring that if the employer cannot be reached to verify the employment, the
      individual certifying the prior employment has knowledge of that employment.
      (Finding 3)



                                                2
                      INTRODUCTION AND BACKGROUND


The Division of Migrant and Seasonal Farmworkers (formerly the Division of Seasonal
Farmworker Programs) within ETA is responsible for administering the National Farmworker
Jobs Program (NFJP). The intent of NFJP, under section 167 of the Workforce Investment Act,
is to strengthen the ability of eligible migrant and seasonal farmworkers and their families to
achieve economic self-sufficiency through job training and other related services that address
their employment related needs. Assistance from the NFJP is accessed through the NFJP grantee
partners and local One-Stop Centers.

TCWV, a 501(c)(3) organization, serves migrant and seasonal farmworkers and their families
under the provision of the WIA grants. Telamon-West Virginia reported providing training and
services to 56 migrant farmworkers in the State of West Virginia during the program year. Of
this number, 15 were reported as having entered unsubsidized employment. Within the State of
West Virginia, TCWV administers NFJP from three offices: an administrative headquarters
along with additional offices in Martinsburg and Romney. TCWV provides core, intensive and
training services to eligible farmworkers, including literacy and cognitive development programs
in both Spanish and English for the farmworkers and their families.

TCWV was awarded a grant in the amount of $217,725 to provide training and services to
eligible migrant and seasonal farmworkers. Core services include outreach, admission and
orientation of farmworkers, as well as emergency assistance needed by farmworkers to sustain
their participation in the agricultural workforce. Intensive Services include in-depth assessments
and the development of an Individual Employment Plan based upon those assessments. Training
services are usually in the context of a classroom environment and are provided by institutions
that subcontract with TCWV on a per-participant basis, according to the objectives of the
participant’s Individual Employment Plan.

                 OBJECTIVES, SCOPE, AND METHODOLOGY

The primary objectives of our audit were to determine whether the costs claimed by TCWV for
the period July 1, 2000 through June 30, 2001, under the DOL grant were reasonable,
allowable, and allocable under the cost principles set forth in OMB Circular A-122 and grant
guidelines, and to determine whether performance reported was accurate and properly
supported.

Our audit was performed in accordance with Government Auditing Standards issued by the
Comptroller General of the United States. Our audit included such tests of the accounting
records and other accounting procedures, as we considered necessary in the circumstances.

Our audit was performed using the criteria we considered relevant. These criteria included
those established by the Federal Government in: OMB Circulars A-110, Uniform
Administrative Requirements for Grants and Agreements with Institutions of Higher Education,
Hospitals and Non-Profit Organizations, and A-122, Cost Principles for Non-Profit
                                                3
Organizations; the Workforce Investment Act of 1998 (WIA); 20 CFR Part 669 National
Farmworker Jobs Program under Title 1 of the WIA; and 29 CFR Parts 95 and 96,
Administrative Requirements and Audits of Federally Funded Grants, Contracts, and
Agreements.

Management Controls

To meet the aforementioned objectives, we reviewed management controls over relevant
transaction cycles. Our work on established management controls included obtaining and
reviewing policies and procedures manuals, interviewing key personnel, and reviewing selected
transactions to observe the controls in place. Our testing related to management controls was
focused only on the controls related to our audit objectives of reviewing the reported cost and
performance data and was not intended to form an opinion on the adequacy of management
controls, and we do not render such an opinion. Weaknesses noted in our testing are discussed
in the Findings section of this report.

Compliance with Laws and Regulations

In order to determine compliance with the above-mentioned laws and regulations, we performed
detailed tests of transactions and tested a sample of participants who were enrolled in the
program during our audit period. Our detailed tests of transactions included both analytical
review and substantive tests of accounts. Our testing related to compliance with laws and
regulations was focused only on the laws and regulations relevant to our audit objectives of
reviewing the reported cost and performance data and was not intended to form an opinion on
the compliance with laws and regulations as a whole, and we do not render such an opinion.
Instances of non-compliance are discussed in the Findings section of this report.




                                               4
Our sample universe of participants included all participants enrolled during the period. In
program year 2000, TCWV served 56 participants, of whom 26 were terminated during the
year. Unsubsidized employment placements comprised the largest group of those exiting with a
total of 15 participants (58 percent). The remainder was comprised of seven other terminations
(27 percent) and four receiving support services only (15 percent). We reviewed a sample of 42
participant files. Our sampling technique was a random selection so that all participants had an
equal chance of being selected. Procedures performed on the selected participants included
reviewing the eligibility determination, reviewing the types of services provided and the costs
of those services, and reviewing the program outcome for those exiting the program.

The costs and performance reported by TCWV are presented on the Schedules of Costs
Reported and Performance Reported in this report. These schedules, included as Schedules A
and B, respectively in this report, are based on the information reported to ETA in the Financial
Status Report and the Program Status Summary.




                                                5
                                           FINDINGS

FINDING 1: Inadequate Documentation in Participant Files

During program year 2000, TCWV provided training and services to 56 participants. For 13
participants (31percent of our sample), we were unable to determine their eligibility, because
their files lacked evidence to support either their work authorization or selective service
registration status.

A migrant farmworker is a seasonal farmworker whose agricultural labor requires travel to the
job site without being able to return home to his/her permanent residence the same day.

To be eligible under NFJP, a person must be (1) a disadvantaged migrant or seasonal
farmworker, or their dependent who has been primarily employed in agricultural labor that is
characterized by chronic unemployment or underemployment during the 12-month eligibility
period (12 months within the 24 months immediately preceding the application for services),
and (2) a citizen, or someone authorized by the Attorney General to work in the U.S. Also, all
male applicants must have registered for military selective service.

13 of 42 Participants (31 percent) Sampled Were Not Properly Documented

To determine how effective TCWV was in selecting eligible participants, we selected a random
sample of 42 participants to test eligibility. We reviewed the participant’s files and discovered
that 13 did not contain the documentation required by guidelines to support the participants’
eligibility. Therefore, we could not substantiate the eligibility of these participants.

The Attachment to NFJP Bulletin No. 00-02, effective July 1, 2000, states: “As part of their
system of internal controls, grantees are expected to obtain source documentation that verifies
the information provided by applicants covering such key eligibility elements as age, work
history and earnings from agriculture labor, family size and income, work authorization, and
compliance with Selective Service requirements.”

In addition, paragraph 669.360(b) of WIA states: “In providing emergency assistance, the
MSFW may use an abbreviated eligibility determination process that accepts the applicant’s
self-attestation as final evidence of eligibility, except that self attestation may not be used to
establish the requirements of legal working status in the United States, and Selective Service
registration, where applicable.”

The files lacked the minimum requirements for documentation as required by regulations. The
files in question lacked identification, social security cards, and/or INS documents necessary to
establish legal work status. Since we were unable to verify the eligibility of the participants we
questioned the unsupported costs. The total questioned costs are $1,566 and consist of
emergency assistance payments, primarily travel assistance and rent assistance. Based on the
                                                  7
sample results the projected error for the sample universe would be $2,088.∗

Auditee’s Response

      We believe that procedures in place to verify available eligibility documents
      of all applicants, including those who make contact with outreach staff in
      remote areas, are adequate and in compliance with regulations and other
      guidance for the NFJP.

      It is further notable, that the reviewers recognized that funds expended in
      these cases were nominal emergency assistance amounts; and that when
      participants desire to enter training, additional verification procedures are in
      place to prevent misexpenditures on ineligible applicants. In this regard, we
      request relief of these questioned costs under sections 184 (c) and (d) of the
      Workforce Investment Act and section 677.720 [sic] of WIA regulations

Auditors’ Conclusion

All the files in question did not contain the minimal evidence to establish legal working status
as required by regulations. Only recording a number of a document viewed in the file is not
sufficient auditable evidence. We understand that on occasion it may not be possible to copy all
documents for the file. We have noted that some grantees will require an affidavit by the staff
member certifying the examination of the documents. This is an acceptable alternative to
having the document copied for the file.

Recommendation

We recommend that the Assistant Secretary for ETA recover the $1,566 in questioned costs.




∗ -- $2,088 is the point estimate of questioned costs using a confidence level of 90 percent.

                                                                8
FINDING 2: Costs Were Not Equitably Distributed Among Cost Objectives

TCWV charged $4,660 in supply costs entirely to the WIA grant, even though the costs
benefited all the grants operated by TCWV. These costs should have been allocated to each
program using the same methodology TCWV used to allocate its other direct costs.

TCWV has developed a methodology for allocating certain direct costs that benefit more than a
single cost objective. This methodology involves using an internally generated report called a
“labtag” report which details the distribution of time spent in an office on each cost objective.
These reports are generated periodically and the percentages of time spent are used by TCWV
to distribute certain recurring direct costs, such as utilities cost, among different programs when
the specific amount chargeable to each program cannot be readily identified and segregated.
However not all costs are allocated using this methodology, and we take exception to certain
costs that were charged in full to the WIA grant that we feel should have been allocated using
the established methodology.

OMB Circular A-122, Attachment A, A. 2. Factors affecting allowability of costs states:

     To be allowable under an award, costs must meet the following general
     criteria . . . and . . . Be accorded consistent treatment.

To properly allocate the costs of the supplies, we applied the relevant percentages in the labtag
reports to the cost of the furniture. We found that WIA was charged $3,781 more than it should
have been, which we question. TCWV needs to follow procedures that identify all costs
benefiting multiple cost objectives, and not just recurring overhead costs like rent and utilities.

Auditee’s Response

   We agree that the established methodology for allocation of costs of the supplies
   in question should have been applied. At the time of the purchase, expediting
   such orders included optional targeting of affected grants or projects when
   specific benefits were appropriate. In this case that option was applied in error.
   Since then, the allocation procedure has been revised to require application of
   the assignment methodology unless justification is otherwise provided.

Auditors’ Conclusion

No changes in our position were made as a result of the auditee’s response.




                                                 9
Recommendations

We recommend that the Assistant Secretary for ETA:

   1. Recover the $3,781 in questioned costs.

   2. Require TCWV to strengthen controls to identify all costs, not just recurring overhead
      costs, benefiting multiple cost objectives and ensure that these costs are allocated in
      accordance with the methodology already in operation, so that each program
      administered by TCWV bears its proportionate share of the cost of operation.




                                              10
FINDING 3:         Improper Verification of Participant Work History

In the course of reviewing the participant files, we noted that one participant verified the work
history of seven other participants. According to Telamon’s WIA Operations Manual:

         If the employer can’t or won’t cooperate or cannot be reached, try to find
         some other way to verify the information. Find someone not related to the
         applicant if possible, who worked with the applicant and is willing to sign an
         affidavit or statement that he/she worked with or observed the applicant
         working for the named employer during time indicated. Write out the
         statement for the co-worker, or have the co-worker write it out, sign it and
         record the date and the co-worker’s name and address.

This participant signed seven verification letters attesting to the farmwork employment of these
participants. However, the participant was not working for the same employers as the persons
she was verifying during the time periods in question. We question the validity of the
verifications and her knowledge of the other participant’s employment.

Auditee’s Response

The Auditee’s response did not address this finding.

Recommendation

We recommend that TCWV strengthen its controls over the eligibility verification process, and
ensure that the individual verifying the participant’s farmwork employment has actual
knowledge of that employment.




                                                11
FINDING 4:         Performance Data Reviewed Were Accurate and Properly
                   Supported

We reviewed the data reported by TCWV on the Program Status Summary to determine
whether this information was accurate and properly supported. We were able to verify the
overall totals reported when we compared the information to the databases TCWV maintained.
A summary of this data can be found on Schedule B - Schedule of Performance Reported.

Our testing of this data included reviewing the underlying support for the preparation of the
Program Status Summary as a whole, and reviewing the reported program information for the
sample of participants selected for testing. The results of our review agreed with the reported
outcomes for those participants that exited the program.

Findings 1 and 2 may impact performance data. Based on the information in the findings, the
eligibility of some participants was improperly documented. We do not question the number of
participants reported in the program status summary. However, based on our test results, some
of those reported may be questionable as to their eligibility for the program due to lack of
documentation.




                                               12
                                      TELAMON CORPORATION                                       Schedule A
                                         WEST VIRGINIA

                                SCHEDULE OF COSTS REPORTED
                                 Program Year Ended June 30, 2001


                           Financial Status Report                 Reported

                           1. Classroom Training                   $ 10,248
                           2. On the Job Training                          -
                           3. Work Experience                          3,171
                           4. Training Assistance                          -
                           5. Services Only                           18,607
                           6. Administration                          12,645
                           7. All Other Program                      145,719
                           8. Total                                $ 190,390

Terms Used Above

Classroom Training:    Costs related to participants provided some form of organized classroom training.
                       Generally includes tuition costs, stipends, and support provided while in training.

On the Job Training:   Costs paid to reimburse an employer for half of the wages paid to a participant during
                       a contractual training period. Also includes support paid to the participant.

Work Experience:       Wages paid to a participant placed in a job by the grantee in order to assist the
                       participant by gaining practical work experience.

Training Assistance:   This is a category carried over from JTPA generally not used under WIA reporting.

Services Only:         Costs related to participants that are only provided support service, with no
                       enrollment in training programs.

Administration:        Salaries and overhead costs related to general administration of the program and not
                       directly providing program services. Costs are limited under the grant agreement.

All Other Program:     Salaries and overhead related to overall running of the program not broken out in any
                       category above.




                                                    13
                                 TELAMON CORPORATION                             Schedule A-1
                                   WEST VIRGINIA

                           SCHEDULE OF COSTS REPORTED
                                Supplemental Information
                            Program Year Ended June 30, 2001

                                                       Incurred
               Category                                   Costs     Subtotals

               1. Classroom Training
                  A. Allowances                        $   6,336
                  B. Supportive Services                   1,842
                  C. Training Materials                    2,070       10,248

               2. On the Job Training                  $       0             0

               3. Services Only
                  A. Salaries and Fringe Benefits      $   6,325
                  B. Office Costs and Overhead             3,357
                  C. Supportive Services                   8,925       18,607

               4. Training Assistance                  $       0             0

               5. Work Experience
                  A. Salaries and Fringe Benefits      $   2,594
                  B. Miscellaneous Other                     577         3,171

               6. Administration
                  A. Indirect Administration           $ 10,603
                  B. Miscellaneous Other                  2,042        12,645

               7. Other Program
                  A. Salaries and Fringe Benefits      $ 90,395
                  B. Office Costs and Overhead           55,324       145,719

               8. Total                                $190,390      $190,390


Note: The above information is not required to be reported to ETA, and was created by reviewing the
financial records used in preparation of the Financial Status Report.




                                              14
                        TELAMON CORPORATION                       Schedule B
                          WEST VIRGINIA

           SCHEDULE OF PERFORMANCE REPORTED
               Program Year Ended June 30, 2001

Category                                     Planned   Reported

Total Participants                             62         56

   Total Terminations                          50         26

   Entered Unsubsidized Employment             14         15

           Direct Placement                     -          -

           Indirect Placement                   -          -

   Also Obtained Employability                  -          -
Enhancement

   Employment Enhancement Only                  -          -

   Services Only                                -          4

   All Other Terminations                      36          7

Total Current Participants (End of Period)     12         30




                                   15
                               TELAMON CORPORATION                    Schedule B-Continued
                                   WEST VIRGINIA

                     SCHEDULE OF PERFORMANCE REPORTED
                              Program Year Ended June 30, 2001

Terminology Used

Participants                              Disadvantaged migrant and seasonal farmworkers
                                          and their dependents.

Total Participants                        Participants that were provided any services during
                                          the program year. Includes participants carried
                                          over, new participants, and those exiting during the
                                          program year.

Total Terminations                        Participants that exited the program during the
                                          year.

Entered Unsubsidized Employment           Participants placed in a non-federally subsidized
                                          job.

Direct Placement                          Participants referred directly to a job with no
                                          training services provided. (Detail not required to
                                          be reported under WIA)

Indirect Placement                        Participants placed in a job after training or
                                          enhancement services. (Detail not required to be
                                          reported under WIA)

Also Obtained Employability
Enhancement                               Participants placed that also received services
                                          improving job prospects, such as completing GED
                                          program, obtaining a degree, completing
                                          occupational training. (Detail not required to be
                                          reported under WIA)

Employment Enhancement Only               Participants not placed in a job but exiting the
                                          program with enhancements to improve job
                                          prospects. See examples above. (Detail not
                                          required to be reported under WIA)




                                            16
Services Only            Participants that exited the program with support
                         services only, with no training or referral to
                         employment.

All Other Terminations   Participants that exited the program that do not fall
                         into any other termination category.




                           17
                        Appendix A
Response to Draft Report by Telamon Corporation – West Virginia




                              18
19
20
21
22
23
24
